HHS/OIG, Audit - "Review of Undistributable Child Support Collections in Michigan
From October 1, 1998, Through December 31, 2004," (A-05-05-00033)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Undistributable Child Support Collections in Michigan From October 1, 1998,
Through December 31, 2004," (A-05-05-00033)
August 4, 2006
Complete
Text of Report is available in PDF format (388 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether the Michigan Department of Human Services, Office
of Child Support (State agency) appropriately reported program income for undistributable
child support collections and interest earned on program funds.  The State agency did
not recognize program income of $6,662,322 ($4,397,133 Federal share) for unclaimed
collections held by Friend of the Court offices that should have been considered abandoned
and transferred to the State Treasurer pursuant to State law.  The State agency did
not report program income totaling $390,695 ($257,859 Federal share) for undistributable
child support collections that were transferred to the State Treasurer for the quarters ended
December 1998 through December 2004.
In addition, the State agency could not provide documentation to support resolution of a
prior Office of Child Support Enforcement (OCSE) Division of Audit finding and recommendation
regarding undistributable collections totaling $1,121,298 ($740,057 Federal share) that were
not reported as program income.
We recommended that the State agency: (1) require the Friend of the Court offices to transfer
the unclaimed collections to the Unclaimed Property Division and report program income for
undistributable collections totaling $6,662,322 ($4,397,133 Federal share); (2) report program
income for undistributable collections of $390,695 ($257,859 Federal share) that were transferred
to the State Treasurer; (3) provide program oversight to ensure that undistributable collections
are identified and reported as program income on the quarterly Federal financial report (Form
OCSE‑396A); (4) implement adequate policies, procedures, and controls to ensure that
undistributable child support collections reported on the quarterly report of collections
(Form OCSE‑34A) are recognized as program income on Form OCSE‑396A; and (5) work
with OCSE to resolve the recommendation from 1999 to adjust for undistributable collections
totaling $1,121,298 ($740,057 Federal share) not reported as program income.
The State agency generally disagreed with our findings and recommendations.